No.19-508

IN THE SUPREME COURT OF THE UNITED STATES

AMG Capital Managem ent, LLC et al.,
Petitioners,

v.
Federal Trade Commission,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the accompanying Brief of
Amici Curiae Former Federal Trade Commission Officials in Suppo1·t of Responde11t
contains 7,948 words, excluding the parts of the Amici Brief that are exempted by Supreme
Court Rule 33.l (d) .
I hereby declare under the penalty of perjury that the foregoing is true and correct.
,

Executed on December 3, 2020.

David C. Vladeck

Counsel of Record

Georgetown University Law Center
Civil Litigation Clinic
600 New Jersey Avenue, NW
Washington, D.C. 20001
(202) 662-9540
vladecl<:d@georgetown.edu
Former
Counsel for Amici Curiae
Federal Trade Commission Officials

